                                O ffice of th e Ins pe ctor Ge ne ral


D ale Soppe r
A cting D e puty Com m is s ione r
  for Finance , A s s e s s m e nt and M anage m e nt

A s s is tant Ins pe ctor Ge ne ral
 for Audit

Suppl
    e m e ntalSe curity Incom e Ste w ards h ip Re vie w



Th e attach e d finalm anage m e nt advis ory re port pre s e nts th e re s ults of our
e xam ination of th e Suppl  e m e ntalSe curity Incom e (SSI)Ste w ards h ip Re vie w
(A-03-9 5-02610). Th e Ste w ards h ip Re vie w is an annualq ual        ity as s urance re vie w
pe rform e d by th e O ffice of Program and Inte grity Re vie w s (O PIR) to de te rm ine :
(1)nonm e dicalpaym e nt accuracy of SSIpaym e nts , and (ii) th e SocialSe curity
Adm inis tration’ s (SSA )com pl   iance w ith nationalpol    icie s and proce dure s . Th e
Ste w ards h ip Re vie w is al
                             s o de s igne d to as s is t SSA m anage m e nt in form ul ating
ope rating pol  icy and im proving proce dure s for be tte r adm inis tration of th e SSI
program .

W e found one are a of conce rn. Th e re is a l        ack of control   s ove r th e dis pos ition of
O PIR-ide ntifie d paym e nt e rrors forw arde d to fie l   d office (FO )s taff for corre ction.
Fol l
    ow -up and/or fe e dback is an e s s e ntialpart of a q ual      ity as s urance function.
W ith out fol l
              ow -up control    s , O PIR m ak e s data bas e e ntrie s th at do not paral    le lFO
actions . As a re s ul t, th e paym e nt accuracy rate s proje cte d from th e data bas e
m ay not accurate l  y re fle ct SSA ’  s b e ne fit paym e nt pe rform ance . A re ce nt O PIR
re port found s im ilar probl  e m s and re com m e nde d corre ctive action. W e re vie w e d
O PIR’ s re com m e nde d corre ctive action. W e concur w ith O PIR’          s re com m e ndations
as note d in th e attach e d re port.
Page 2 - D al
            e Soppe r

You m ay w is h to com m e nt on any furth e r action tak e n or conte m pl    ate d. Ifyou
ch oos e to offe r com m e nts , pl
                                  e as e provide your com m e nts w ith in th e ne xt 60
days . Ifyou w is h to dis cus s th e finalre port, pl   e as e cal
                                                                  lm e or h ave your s taff
contact D onal  d G. Frank l in, D ire ctor, Sys te m s and FinancialM anage m e nt Audits ,
at (410)9 65-9 706.




                                                  Pam e l
                                                        a J. Gardine r

A ttach m e nt

cc:

Re ading Fil
e
Subje ct File
SSA /O IG/O A /RBERLINGUT/cl
                           h /4-15-9 8          9 5-02610.FIN
Re port Fil
          e
                                        O ffice of th e Ins pe ctor Ge ne ral


D ale Soppe r
A cting D e puty Com m is s ione r
  for Finance , A s s e s s m e nt and M anage m e nt

A s s is tant Ins pe ctor Ge ne ral
 for Audit

Suppl
    e m e ntalSe curity Incom e Ste w ards h ip Re vie w


Th is m anage m e nt advis ory re port is to advis e th e SocialSe curity Adm inis tration
(SSA )of a probl  e m w ith th e Ste w ards h ip Re vie w th at coul d pote ntial
                                                                                ly affe ct th e
inte grity of SSA ’s Suppl  e m e ntalSe curity Incom e (SSI)1 paym e nt accuracy rate . In
addition to th e O ffice of th e Ins pe ctor Ge ne ral(O IG)re vie w , an O ffice of Program
and Inte grity Re vie w s ’(O PIR)2 s tudy confirm e d th e probl e m and re com m e nde d
corre ctive action.

Back ground

Each ye ar, O PIR conducts a Ste w ards h ip Re vie w to de te rm ine th e A ge ncy’  s SSI
paym e nt accuracy rate . Th is re vie w anal   yze s SSInonm e dicale ligibility crite ria to
de te rm ine paym e nt accuracy and com pl    iance w ith nationalpol icie s and
proce dure s . Itis al s o us e d for program m anage m e nt and policy form ul  ation in
adm inis te ring th e SSIprogram .

D uring th e Ste w ards h ip Re vie w , O PIR’ s Q uality Re vie w A nal y s ts (Q RA)s e l
                                                                                          e ct and
re vie w a s am pl e of SSIpaym e nts . As part of O PIR’     s re vie w , th e y conduct
inte rvie w s w ith re cipie nts and obtain re l e vant collate ralinform ation from
th ird-party s ource s . Th e Q RA anal   yze s th e data and de te rm ine s if th e paym e nt is
corre ct. Ifa paym e nt e rror e xis ts , th e Q RA de te rm ine s th e corre ct paym e nt and
re ports th e type of e rror and th e ne ce s s ary corre ctive action on th e SSIQ ual      ity
Re vie w Fe e dback Re port, SSA -9 3-U4 or Facs im il     e SSA -9 3. A copy of th is form is

1
   Th e SSIprogram , auth orize d by titl    e XVIof th e SocialSe curity Act, is adm inis te re d by SSA and provide s a
m inim all  e ve lof incom e for th e age d, blind, and dis able d w ith lim ite d incom e and re s ource s . In Fis cal
Y e ar 19 9 6, th e SSIprogram accounte d for $27.7 bil       l
                                                              ion, or 6.54 pe rce nt, of SSA’     s $380.9 bil  l
                                                                                                                ion program
e xpe ns e s . During Fis calY e ar 19 9 6, SSA proce s s e d ch e ck s for alm os t 6.6 m ilion SSIre cipie nts m onth l
                                                                                             l                             y
w ith annualFe de ralbe ne fit paym e nts total   ing $24.9 bil  lion and State s ’s uppl  e m e ntation of $2.8 bil  l
                                                                                                                      ion.
2
    O n Fe bruary 13, 19 9 8, O PIR w as re nam e d th e O ffice of Qual
                                                                       ity Assurance and Pe rform ance A s s e s s m e nt.
Page 2 - D al
            e Soppe r

us e d to notify th e fie l
                          d office (FO )re s pons ibl
                                                    e for th e e rror of both th e e rror and
ne e de d corre ctive action.

For ce rtain e rrors ,3 th e FO m us t re s pond by re turning th e fe e dback form to th e
Q RA de s ignating any corre ctive actions tak e n. H ow e ve r, if th e form is not
re turne d, Q RAs are re q uire d to fol low -up w ith th e FO s to e ns ure th at corre ctive
                        4
actions w e re m ade .

Concurre nt w ith FO notification, th e re porte d paym e nt e rrors are e nte re d into th e
Q ual ity A s s urance (Q A )data bas e at SSA H e adq uarte rs . Th is data bas e provide s
th e bas is for cal culating O PIR’                     ate d paym e nt accuracy rate s .
                                   s Ste w ards h ip-re l

Re ce ntl y, O PIR com pl  e te d a s tudy and is s ue d a re port5 on th e Ste w ards h ip Re vie w
e rror fe e dback proce s s . Th is re vie w w as d e s igne d to de te rm ine w h e th e r:
(1)Q RA staff cons is te ntl    y follow e d th e fe e dback re port pol icie s and proce dure s in
th e Q ual  ity Re vie w M anualSys te m (Q RM S), and (2) FO ’      s corre cte d O PIR ide ntifie d
e rrors in a tim e l y m anne r.

Scope and M e th odol
                    ogy

W e re vie w e d a s am pl e of Ste w ards h ip cas e s to de te rm ine th e e ffe ctive ne s s of th e
fe e dback control   s . W e anal  yze d a random s am pl      e of 100 out of 239 Ste w ards h ip
cas e s in O PIR’ s re gionaloffice in Ph il    ade lph ia. O PIR’   s Q RA ide ntifie d incorre ct
paym e nts in 27 of th e 100 s am pl       e d cas e s . For th e s e 27, w e re vie w e d th e Q RA
cas e file s and ve rifie d th at th e re com m e nde d dol   l
                                                              ar corre ctions w e re re corde d in
th e Q A data bas e . Al   s o, for th e s e 27 e rror cas e s , w e ve rifie d w h e th e r or not th e
FO m ade th e Q RA’     s re com m e nde d ch ange s . Nine te e n of th e 27 cas e s h ad e rrors
in e xce s s of $5. H ow e ve r, w e did not inde pe nde ntl       y ve rify th e accuracy of O PIR’     s
de te rm ination of a paym e nt e rror.

W e al s o re vie w e d th e re s ul
                                   ts of O PIR’
                                              s 19 9 7 s tudy on th e SSIq ual
                                                                             ity re vie w e rror
fe e dback proce s s . O ur fie l  d w ork took place from January 19 9 6 to April19 9 7.



3
   Th e SSA-9 3-U4 is us e d w h e n th e FO is re q uire d to re s pond to any of th e fol     l
                                                                                                ow ing s ituations :
1)de ficie ncie s are s ubje ct to a re buttalby a re cipie nt, e .g., joint bank accounts , de s ignate d burialfunds ,
unk now n as s e ts , m e dicalconfine m e nt th at re s ul
                                                          ts in th e $30 paym e nt cap or ine l          ity;2) FO as s is tance is
                                                                                                    igibil
ne e de d to h e l
                 plocate th e re cipie nt or obtain coope ration;3)any paym e nt de ficie ncie s are $5 or m ore ;4)any
paym e nt is m ade to an ine l  igible ;5) th e re are any l arge re troactive paym e nt dol    ars and e vide ntiary
                                                                                                l
de ficie ncie s ;and 6) th e FO ne e ds to de ve l op pote ntiale ntitle m e nt for oth e r be ne fits .
4
    QRMS, section 9 040 re q uire s th e Q RA to m onitor FO actions .
5
   “Suppl  e m e ntalSe curity Incom e Q ual   ity Re vie w Fe e dback Re port (SSA-9 3-U4)Cons is te ncy Re vie w ,”
O A IPQ /O PIR, D e ce m be r 19 9 7. Th is re vie w e xam ine d 275 Ste w ardsh ip cas e s w ith paym e nt e rrors in e xce s s
of $5.
Page 3 - D al
            e Soppe r

Re s ul
      ts of Re vie w

Nine te e n of th e 27 cas e s h ad e rrors in e xce s s of $5. Ne ith e r th e FO nor th e Q RA
com pl e te d 2 im portant fol  low -up s te ps in 5 of th e s e 19 Ste w ards h ip cas e s . For
tw o of th e five cas e s , th e FO m ade be ne fit paym e nt adjus tm e nts th at diffe re d
from th e Q RA’   s re com m e ndation. In th e re m aining th re e cas e s , th e FO m ade none
of th e re com m e nde d ch ange s . For al   lfive cas e s , no fil
                                                                   e docum e ntation e xis te d to
e xplain w h y th e FO did not m ak e th e Q RA’    s re com m e nde d adjus tm e nt(s ).
Additional   l
             y, th e Q RA did not fol   ow -up to as s ure th e FO m ade th e re com m e nde d
                                        l
ch ange s .

Concl
    us ions

W e are conce rne d th at th e inte grity of th e unde rlying data us e d to cal culate and
re port th e A ge ncy’  s SSIpaym e nt accuracy is com prom is e d w h e n th e FO doe s not
m ak e th e Q RA’  s re com m e nde d ch ange s and th e Q RA doe s not m onitor to s e e if
th e ch ange s are m ade . Th is inaction al  low s for an incongrue nce be tw e e n th e
inform ation re corde d in th e Q A data bas e and w h at actual    l
                                                                    y took place at th e FO
le ve l
      . Since th e paym e nt accuracy rate is cal    culate d us ing Q A data bas e
inform ation, th e Q RA re corde d data and th e FO ’   s action m us t m atch .

Additional    l
              y, adjus ting th e paym e nts for am ounts diffe re nt th an th e Q RA’     s
re com m e ndation—or not m ak ing an adjus tm e nt at al        l
                                                                 —rais e s conce rns about th e
Q A proce s s . If th e FO cons ide re d th e re com m e nde d adjus tm e nts to be incorre ct,
               iabil
th e n th e re l    ity of th e Q RA’s e rror de te rm inations and re com m e ndations are
cal le d into q ue s tion. So too is th e proje ction us e d to com pute th e ove ral    lSSI
paym e nt accuracy rate . Conve rs e l     y, if th e Q RA’ s re com m e ndations w e re inde e d
corre ct, th e n th e FO ’ s lack of re s pons e s ugge s ts th at s om e SSIre cipie nts w e re
de nie d th e prope r paym e nts due th e m or th at SSA w as not re im burs e d for
ove rpaym e nts . W e w e re unabl    e to de te rm ine w h y th e FO did not im pl   e m e nt th e
Q RA’   s re com m e ndations .

In an e arl  ie r m e m orandum , th e O IG urge d SSA to re vie w its Q A proce s s to as s ure
th at th e Q RA’   s e rror de te rm inations and re l
                                                     ate d proje ctions are corre ct and th at
any ne ce s s ary fol   low -up proce dure s are m onitore d to as s ure paym e nt corre ctions
are im pl  e m e nte d prope rl y. Subs e q ue ntl
                                                 y, w e w e re advis e d th at O PIR h ad re ce ntl y
com pl  e te d a s tudy on th e fe e dback e rror proce s s . Th e re s ults of O PIR’ s s tudy
confirm th at additionalw ork is ne e de d to e ns ure m ore e ffe ctive control       s ove r th e
fe e dback proce s s .
Page 4 - D al
            e Soppe r

W e com m e nd 0PIR for its re vie w e fforts and its re com m e nde d corre ctive actions
to:

1. Re vis e th e Q RM S proce dure s for com pl      e ting th e FO re s pons e due date and
   include a de finition of th e e xact tim e fram e th e FO re s pons e s h oul    d be re ce ive d
   by O PIR. Th e s e ins tructions w il   lal s o incl ude proce dure s to e ncourage th e FO
   to ack now l  e dge re ce ipt of th e fe e dback form .

2. Re q ue s t th e D e puty Com m is s ione r for Program s and Pol
                                                                   icy to is s ue a program
   circular to re m ind FO s to annotate th e back of th e SSA -9 3-U4 to docum e nt th e
   action to corre ct th e Suppl   e m e ntalSe curity Re cord.

O IG concurs w ith O PIR’   s re com m e nde d corre ctive actions and w il
                                                                          lprovide
com m e nts on th e re vis e d QRM S fe e dback re porting proce dure s w h e n th e y are
finalize d.




                                                              Pam e l
                                                                    a J. Gardine r
A PPEND ICES

                                                                              A PPEND IX A


  M A JO R CO NTRIBUTO RS TO TH IS REPO RT


O ffice of th e Ins pe ctor Ge ne ral

D onald G. Frank l   in, D ire ctor, Sys te m s and FinancialM anage m e nt Audits
Gal e Stone , Audit M anage r
Rich ard Be rinrut
             l       , Auditor-in-Ch arge
Je an Lynch , Se nior Auditor
Lou Faiol a, Se nior Auditor
Rich ard D e ve rs , Auditor
Frank Cas s idy, Auditor
                             A PPEND IX B


SSA O RGA NIZ A TIO NA LCH ART

